<html>
<title> - [H.A.S.C. No. 112-54] DEPARTMENT OF DEFENSE INVESTMENT IN TECHNOLOGY AND CAPABILITY TO MEET EMERGING SECURITY THREATS
</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-54]
 
                    DEPARTMENT OF DEFENSE INVESTMENT

                    IN TECHNOLOGY AND CAPABILITY TO

                     MEET EMERGING SECURITY THREATS

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 26, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                  U.S. GOVERNMENT PRINTING OFFICE
68-162                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman
JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                LORETTA SANCHEZ, California
BILL SHUSTER, Pennsylvania           ROBERT ANDREWS, New Jersey
K. MICHAEL CONAWAY, Texas            SUSAN A. DAVIS, California
CHRIS GIBSON, New York               TIM RYAN, Ohio
BOBBY SCHILLING, Illinois            C.A. DUTCH RUPPERSBERGER, Maryland
ALLEN B. WEST, Florida               HANK JOHNSON, Georgia
TRENT FRANKS, Arizona                KATHY CASTOR, Florida
DUNCAN HUNTER, California
               Alex Kugajevsky, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Jeff Cullen, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2011

                                                                   Page

Hearing:

Tuesday, July 26, 2011, Department of Defense Investment in 
  Technology and Capability To Meet Emerging Security Threats....     1

Appendix:

Tuesday, July 26, 2011...........................................    31
                              ----------                              

                         TUESDAY, JULY 26, 2011
 DEPARTMENT OF DEFENSE INVESTMENT IN TECHNOLOGY AND CAPABILITY TO MEET 
                       EMERGING SECURITY THREATS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     9
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Berkeley, Alfred R., III, Chairman, Pipeline Financial Group, 
  Inc., Member, Business Executives For National Security........     7
Mark, Dr. Hans, Professor, Aerospace Engineering and Engineering 
  Mechanics, John J. McKetta Centennial Energy Chair in 
  Engineering, University of Texas at Austin.....................     3
Reed, Jean, Distinguished Research Fellow, Center for Technology 
  and National Security Policy, National Defense University......     5
Thomas, Jim, Vice President and Director of Studies, Center for 
  Strategic and Budgetary Assessments............................     2

                                APPENDIX

Prepared Statements:

    Berkeley, Alfred R., III.....................................    74
    Langevin, Hon. James R.......................................    35
    Mark, Dr. Hans...............................................    49
    Reed, Jean...................................................    63
    Thomas, Jim..................................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 DEPARTMENT OF DEFENSE INVESTMENT IN TECHNOLOGY AND CAPABILITY TO MEET 
                       EMERGING SECURITY THREATS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                            Washington, DC, Tuesday, July 26, 2011.
    The subcommittee met, pursuant to call, at 2:05 p.m. in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
     TEXAS, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Thornberry. The hearing will come to order.
    And let me first express our appreciation to the witnesses 
for your patience, as we have finished votes. The bad news is 
that we are late. The good news is, now we are not going to be 
interrupted for a while. So I appreciate, again, you all's 
patience.
    This hearing should shed light on matters that are squarely 
within the center of this subcommittee's jurisdiction. Namely, 
what are the emerging threats to the national security of the 
United States? And what are the emerging capabilities in which 
we need to invest in order to meet those threats?
    The one fact of which we can all be assured in national 
security is that there will be change and there will be 
uncertainty. We can't predict the future, but we can watch for 
trends and we can develop technologies that can help meet a 
variety of challenges in a rapidly changing world.
    Of course, the Department of Defense is not the only place 
where those trends can be detected, or where those technologies 
can be identified. And we have certainly assembled a top-rate 
panel today to help us with that task of detecting those trends 
and identifying those technologies. And we appreciate each of 
you being here.
    I understand that Mr. Langevin is on his way. We will give 
him the full opportunity to make his opening statement and 
whatever he would like to do when he--later when he arrives. 
But for now, I think we should proceed with the summary of the 
witness statements.
    Without objection, your full statements will be made part 
of the record. But I would be delighted to hear your summary of 
your statements before we go to questions.
    Before us today we have Mr. Jim Thomas, Vice President and 
Director of Studies for The Center of Strategic and Budgetary 
Assessments.
    We have Dr. Hans Mark with The University of Texas at 
Austin.
    We have Mr. Jean Reed, Distinguished Research Fellow at 
National Defense University, with some prior association with 
this committee.
    And Mr. Alfred Berkeley, chairman of Pipeline Financial 
Group, who is a member of BENS, Business Associates--Business 
Executives for National Security.
    Again, we appreciate all of you being here.
    Mr. Thomas, if you would like to begin.

    STATEMENT OF JIM THOMAS, VICE PRESIDENT AND DIRECTOR OF 
    STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Thomas. Thank you, Mr. Chairman, for the opportunity to 
appear before the subcommittee today.
    In my testimony this afternoon, I will describe some of the 
major security challenges we are likely to face over the next 2 
decades, outline potential discontinuities in future warfare 
and their implications for defense planning. And finally, I 
will suggest some capability areas that may appear as growth 
opportunities for investment.
    The United States, as you know, is facing a multitude of 
threats. But three principal securities challenges stand out: 
Dealing with the rise of China, defeating violence extremism, 
coping with radicalization and destabilization in key countries 
around the world.
    And finally, preparing for a world in which there are more 
nuclear armed powers. The geographic nexus of these three 
challenges is the Indo-Pacific Region, stretching from the 
Persian Gulf around the Malay Peninsula to the Sea of Japan, 
where high economic growth rates are likely to fuel continued 
regional increases in armaments and intense resource 
competitions that could jump the track into the military 
domain.
    Potential changes in warfare will also affect how we deal 
with these challenges.
    First of all, American power projection in its familiar 
forms could become obsolete as countries like China and Iran 
acquire extended-range, precision-guided weapons, advanced 
sensors, and the means to attack opposing electronic systems, 
thereby creating anti-access or area denial zones.
    The second is that proliferation of guided weaponry and 
nuclear weapons makes the prospect of large armies invading 
other countries less likely, while coercive missile campaigns 
and cyber warfare may become far more likely.
    The third is that conflicts will extend into the global 
commons of the high seas, air, space and cyberspace. These are 
areas where the United States traditionally has dominated.
    And the fourth is that the United States is in danger of 
losing its lead in critical military technology competitions, 
such as cyber, precision warfare and directed energy.
    These continuities have several implications. Above all, 
future environments in which U.S. forces are likely to be--
above all, future environments in which U.S. forces operate are 
likely to be far less permissive than in the recent past.
    High signature forces that depend on theater air bases, 
large naval surface combatants, sizable ground formations, and 
large footprints of logistical supply through ports and 
airfields, as well as satellites and low earth orbit and 
geostationary orbits and computer networks, will all be far 
more vulnerable.
    DOD [Department of Defense] should maximize investments and 
systems to perform under a range of nonpermissive conditions 
while minimizing investments and systems whose optimal 
performance depends on relatively benign operating conditions.
    The United States and its allies must also improve their 
ability to counter coercion and more ambiguous forms of 
aggression, encouraging allies and friends around the world to 
field their own anti-access and area denial systems, including 
active and passive defenses, as well as precision weaponry, 
could enable them to withstand coercive efforts by local 
hegemonic aspirants.
    Finally, U.S. research and development and intelligence 
efforts will need to be more closely intertwined to prevent 
technological surprise. Fostering creativity and 
experimentation within the U.S. military will maximize the odds 
of discovering the next big thing in military innovation before 
our adversaries do. In light of these implications, eight 
capability areas look particularly attractive: Countering or 
eliminating nuclear and biological weapons; operating from 
range and penetrating into denied areas to conduct surveillance 
and strike missions; defending against ballistic missile and 
shorter range guided rocket artillery, mortars, and missiles, 
otherwise known as G-RAMM systems; conducting special 
reconnaissance, direct action, and unconventional warfare in 
denied areas; conducting unwarned land attack, sea denial, and 
reconnaissance from undersea; channeling or controlling access 
and movement via non-lethal weapons; disrupting, deceiving, or 
negating the sensors and processing capabilities of hostile 
powers; and finally, building up the capacities of key allies 
in friendly states around the world, not only for internal 
defense, but for external defense increasingly as time goes on.
    In closing, let me express my appreciation to the committee 
for its efforts to raise the level of discourse and awareness 
on these important issues. There is absolutely no question as 
we--looking at our current fiscal woes--that we are entering an 
age of austerity and that tough choices face DOD in the years 
ahead. But there still will be an imperative on protecting the 
seed corn of the Department, especially in R&D [Research & 
Development] and making sure that we are making prudent 
investments to maintain our military edge.
    Thank you.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 37.]
    Mr. Thornberry. Thank you.
    Dr. Mark.

 STATEMENT OF DR. HANS MARK, PROFESSOR, AEROSPACE ENGINEERING 
 AND ENGINEERING MECHANICS, JOHN J. MCKETTA CENTENNIAL ENERGY 
      CHAIR IN ENGINEERING, UNIVERSITY OF TEXAS AT AUSTIN

    Dr. Mark. Here we go.
    Mr. Chairman, and members of the committee, I am very 
honored and humbled to be here. I don't have a broad view of 
this situation.
    I am a professor at the University of Texas at Austin, Mr. 
Chairman. And I used to be chancellor; I think I may have 
signed your degree, if you are----
    Mr. Thornberry. I think you may be right, Dr. Mark. So it 
makes it even more valuable.
    Dr. Mark. Look it up, all right?
    So what I am going to do is talk about some personal things 
and personal opinions. I don't have a background in organized 
things like this.
    I do agree with my predecessor here that China and 
terrorism and the Persian Gulf are important issues. China, I 
think, is the most serious existential threat to the United 
States, because if they decided to do so, they would become 
another Soviet Union. Fortunately, they are very different from 
the Soviet Union. They don't have an ideology that had some 
purchase around the world for some years.
    And I think that their strategy will rather be to become, 
first of all, the world's first economic power. And then what 
they are going to try to do, I think, limit our access to the 
western Pacific and maybe even more. In short, they are going 
to build a navy.
    We have ways to respond to that and I think that the issue 
of sea power in terms of military capability has to be--has to 
have the highest priority in what we are going to have to do, 
and that is supported by air and space power.
    The policy I think we should adopt toward China is what the 
principal Chinese military philosopher, Sun Tzu, once said, 
that the best way to defeat an adversary is to persuade him not 
to fight. And I think that we ought to take positions that 
reflect that view.
    And finally, I think we need to make alliances. We have a 
strong alliance with Japan. I think we ought to make a very 
strategic strong alliance with India. Technology has a place in 
that, in India especially. We should share technology with 
them.
    In the Persian Gulf, the case of course is very different. 
There is also an existential threat there, which is not now 
based on the possession of nuclear weapons, but based on the 
possession of an oil resource that we may lose. And what that 
would mean to the industrial world is serious.
    The United States doesn't depend that much on Middle 
Eastern oil, but the rest of the world is more dependent, 
Europe and other regions.
    I think in the case of the Persian Gulf, we need to go back 
to what President Carter said in his 1980 State of the Union 
message where he said, ``The Persian Gulf is an area of vital 
interest to the United States. And we will see to it that the 
flow of oil will be maintained, even if it takes military 
force.'' That was in the record, said in so many words. And I 
think that is still true, two-thirds of the world's known 
easily recoverable oil resource is still there.
    And you will remember that perhaps back in 1987 or 1988 we 
actually did put our ships at risk. And we kept the pipelines--
the communication line--open. I think that the Persian Gulf 
eventually will solve itself as other energy sources become 
available.
    And so it will decrease in importance, but we still need to 
keep the 5th fleet there, for example. And make sure that we 
are in a position to influence things in a military fashion if 
we have to.
    Finally, there is terrorism, and I have been very 
uncomfortable with the formulation of the war on terror. But 
terrorism is a military tactic, it is not an enemy. And there 
are terrorist groups around the world that we deal with, have 
to deal with. We have the FARC [Revolutionary Armed Forces of 
Colombia] in Colombia. You have the Mexican drug cartels. You 
have got Al Qaeda, of course. But there are lots of terrorist 
groups.
    And I think the civilized world has to say, ``Look, 
terrorism is unacceptable.'' And we have to make that an 
international effort somehow. I think we have done pretty well 
at it, as a matter of fact.
    I think if you look at the various terrorist movements that 
have come and gone, it is a record of some success. I notice 
there is a red light blinking here, which I think tells me that 
I am overrunning my time.
    What I want to do in the question period, if I may, is to 
talk about some technologies that are on the horizon, that are 
relevant to the points that I have made and that you have also 
made.
    So, thank you very much, and I will quit here.
    [The prepared statement of Dr. Mark can be found in the 
Appendix on page 49.]
    Mr. Thornberry. Thank you, Dr. Mark.
    The time is to try to give you a guidance for how far you 
are. But I do want to get back in questions to the capabilities 
you talked about in your written statement, quantum computing 
and other things.
    Mr. Reed.

 STATEMENT OF JEAN REED, DISTINGUISHED RESEARCH FELLOW, CENTER 
 FOR TECHNOLOGY AND NATIONAL SECURITY POLICY, NATIONAL DEFENSE 
                           UNIVERSITY

    Mr. Reed. Mr. Chairman and members of the subcommittee, it 
is an honor to be here today. And a personal pleasure to be 
back in this room to speak to you about some of the potential 
emerging and future security threats and challenges facing the 
United States and the Department of Defense.
    My remarks today will focus on future technology threats 
that I see and general trends with regards to areas of 
emphasis. They reflect my own views, not necessarily those of 
the National Defense University, the Department of Defense, or 
any other organizations with which I am affiliated.
    Throughout history, planners and strategists have had a 
tendency to consider future threats within the context of what 
they knew about the current threat. Thinking about science and 
technology has been similarly linear and compartmentalized, 
with projections within any scientific discipline being based 
on past progress.
    As a result, planners and strategists have been repeatedly 
surprised by the application of new technology to warfare, 
whether actual or economic, by the advantages conferred, by the 
unique combinations of different technologies, and by the non-
linear, often exponential, advances in science and technology.
    Examples abound. In 1921, General Billy Mitchell 
demonstrated the vulnerability of battle ships to bombs, but 
our navies of the world ignored that. And then the combination 
of aircraft, highly mobile armor, and radio, known as 
Blitzkrieg, took the allied armies by surprise at the beginning 
of World War II.
    More recently, the use of precision-guided munitions, armed 
drone aircraft, and satellite GPS [Global Positioning System] 
positioning has changed the complexion of today's battlefield.
    Unfortunately, we have also experienced the advantages that 
can be gained by ingenious use of low technology as well, such 
as delivering biological agents via the postal service, flying 
passenger planes into buildings, or improvising roadside bombs.
    Within the context of the Cold War, planners on both sides 
had a degree of confidence in the technological capabilities of 
their counterparts. Science for its part was highly 
disciplinary and progress was largely made in incremental 
fashion within a given discipline that allowed for reasonably 
accurate planning and the ability to integrate new advances 
into weapons platforms and defensive systems.
    Times have changed and three things have changed with that. 
First, the demise of the Soviet Union and its replacement by 
new transnational adversaries. Secondly, science underwent a 
dramatic paradigm shift in which trans-disciplinary research 
with its ability to affect exponential advances within 
disciplines, and in fact create entirely new disciplines, 
became the norm.
    And then third, information has become ubiquitous, allowing 
individuals access to technology on an unprecedented scale. The 
world, in short, is a much more unpredictable and chaotic 
place, and the emerging threats are equally problematic.
    The spectrum of emerging threats has been enlarged by both 
the exponential advances in scientific knowledge and its 
availability to a broader range of potential bad actors that no 
longer need to have advanced scientific training. Deciphering 
this threat spectrum requires a robust investment in science 
and technology, particular in its evolving trans-disciplinary 
paradigm.
    The concept of technological convergence is critical to 
understanding future threats, as there are some scientific 
disciplines which will be radically shaped by their convergence 
with other areas.
    The disciplines of nanotechnology, biotechnology, 
information technology, and cognitive neuroscience are four 
areas which will be pivotal in this anticipating and countering 
future threats, and I have addressed them in my written 
statements.
    In the interests of time, I will confine my oral remarks to 
biology, where convergence--where the classic example of 
technological convergence--is the convergence of genomics and 
information technology, which has led to the sequencing of the 
human genome, and which will be the basis for personalized 
medicine.
    But the flip side is the ability to alter the genomes of 
pathogenic organisms to create entirely new biological threat 
agents not found in nature. The ability to predict and plan for 
such optimal technological convergences will largely determine 
the technological leaders of the 21st century.
    How to predict and plan for such an outcome is the 
question, and some of my colleagues at the National Defense 
University have suggested navigating through this increasingly 
complex environment using foresight, a structured way to think 
about evolving trends and security challenges, a disciplined 
analysis of alternative futures that could provide decision 
makers with the understanding needed to better influence the 
future environment.
    I believe that the DOD has recognized the changes in the 
threat landscape and understands the paradigm shifts, which 
have changed both the way science is conducted, and also its 
potential to generate new threats.
    There is also a clear awareness that the DOD needs to 
continually invest in its laboratory infrastructure, both 
physical and human capital, in order to stay abreast of 
exponentially increasing scientific advances. And perhaps more 
important, to invest in training the next generations of 
scientists and engineers.
    While it is virtually impossible to predict a priori what 
the future threats will be, maintaining clearer scientific 
superiority with the strategic investment based on strategy--
technology convergence--offers the best chance to drive and 
exploit scientific advances and to anticipate and respond to 
new threats.
    Mr. Chairman, this completes my prepared remarks. And I 
will be happy to answer your questions.
    [The prepared statement of Mr. Reed can be found in the 
Appendix on page 63.]
    Mr. Thornberry. Thank you.
    Mr. Berkeley, thanks for being with us.

    STATEMENT OF ALFRED R. BERKELEY III, CHAIRMAN, PIPELINE 
FINANCIAL GROUP, INC., MEMBER, BUSINESS EXECUTIVES FOR NATIONAL 
                            SECURITY

    Mr. Berkeley. Thank you for having me, Mr. Chairman, 
Ranking Member Langevin----
    Mr. Thornberry. If I could get you to hit your microphone, 
please?
    Mr. Berkeley. Sorry.
    Thank you for having me.
    My name is Alfred Berkeley. I am here as a private citizen. 
I have not read the Quadrennial Defense Review. I was asked to 
come and give the perspective of businesses, particularly 
businesses in the technology arena.
    I have had the privilege in my life of being an investment 
banker and a research analyst following such companies for 24 
years and working at the NASDAQ [National Association of 
Securities Dealers Automated Quotations] stock market for 7 
years, essentially raising capital and providing a secondary 
market for some of the leading technology companies in the 
world.
    I will tell you that I hope my comments will complement the 
remarks you have heard before. They are going to be a little 
bit different. The businessmen that I talk to see six threats.
    They see one goal. They see six capabilities that ought to 
be developed. And they have a very specific ``ask'' of what the 
Government needs to do to make it all work for business.
    The six threats, first, there is an enormous concern that 
as a country we are not providing enough economic opportunity 
to build a committed citizenship, a committed populace.
    We had the wisdom 100 years ago of the Homestead Acts where 
our forefathers knew that wave after wave of immigration, 
particularly from class-stratified and disenfranchised people 
in Europe, was not a good basis for building a sound 
citizenship--citizenry here. We wanted to get into the hands of 
as many people as we could the ability to make a living and the 
ability to own some productive assets.
    And in the agricultural age, 40 acres and a mule was a good 
way to do that. In the industrial age, stock options were a 
good way to get people a piece of the pie. In the information 
age, it is probably all about education.
    I had dinner last night with yet another large company 
executive, who--and I was telling him why I was in Washington--
and he said, well, you are going to talk about the education 
problem, aren't you?
    And that is the recurring theme that I hear from business 
that we are losing our edge, not just in STEM [Science, 
Technology, Engineering, and Mathematics], but also in the 
basic desire to hold education as a revered, respected use of 
time for young people.
    So I would encourage you, using the tremendous analytical 
capabilities and the enormous educational requirements that the 
military has, is to learn what the science is of how people 
actually learn.
    Where is the science in our States' implementation? We have 
a federalism issue, obviously, with education. But we need to 
figure out how to get more people actually learning.
    And that is the biggest single business concern that I 
bring. I realize it is not typically thought of as a DOD issue. 
But because DOD has such massive intellectual capability to do 
good science and get good analysis, I bring it to you.
    The second thing that businessmen talk about repeatedly is 
in energy independence. I won't elaborate on that. The third 
problem is cyber espionage, particularly theft of our 
intellectual property.
    In my industry, the financial services industry, the big 
topic is cyber theft of money and the trillion dollar drain 
that we have on our financial system just by rampant theft.
    So the two cyber issues, cyber industrial espionage and 
cyber theft, are high on businesses' list.
    The War on Drugs is next. We are not winning the War on 
Drugs. We are doing something wrong; we need to rethink that.
    And the last point would be that we are in a long economic 
war. That the warfare is a continuum and it starts with 
economic war. It is a relentless--it is 24 hours a day--it 
doesn't stop, and we need to figure out what to do about it.
    In terms of capabilities, in preparation for coming here I 
asked a number of businessmen what they thought the 
opportunities were for capabilities and one of them said to me, 
``Why don't we wipe out the language barrier?'' Ever since the 
Tower of Babel and the philosophy of the mythology of languages 
being developed, the strangeness of language has led to fear 
and uncertainty among peoples.
    We are on the edge of computer science that will allow 
every language to be translated into every other language. We 
should think about language not as something that is just 
there, but as something that we can take and make a positive 
tool out of--a weapon for good, if you would--by making it 
clear to people.
    The education issue I already talked about. We can, in the 
digital world, take education all over the planet. We can 
provide the best education that ever existed. We can do the 
same for medicine.
    An enormous new battlefront is growing up in what is called 
near-field communications. It is the next generation of cell 
phones. All the current cell phones are now being built with 
the capability to hold the cell phone close to an RFID [Radio-
Frequency Identification] tag and read from that RFID tag. And 
it is going to create billions, if not trillions, of new 
addressable locations and information associated with them.
    We should think of that as a brand new opportunity where we 
have the opportunity to seize the hearts and minds of people by 
adding value to their lives by not letting someone else usurp 
our lead there.
    So I am out of time, and I will take questions whenever you 
want.
    [The prepared statement of Mr. Berkeley can be found in the 
Appendix on page 74.]
    Mr. Thornberry. Thank you.
    I appreciate it, all of you.
    Mr. Berkeley, I can't help but reflect that in the mid to 
late 1990s, President Clinton and Speaker Gingrich put together 
a commission that worked over 3 years to look at national 
security challenges.
    At the end of that time, the top two they came up with is 
proliferation of weapons of mass destruction, and recommended a 
Department of Homeland Security as a result.
    But the other one of the top two was math and science 
education as a national security issue. So you are, you know, 
in good company, not that we have improved since in the last 
decade, but I think it is important to keep talking about that 
as a national security issue.
    At this point I would yield to Mr. Langevin for any opening 
statement, as well as questions he would like to ask.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman.
    And I want thank our panel for being here and for your very 
thoughtful presentations here today. I certainly look forward 
to hearing more about your expert views on how the Department 
of Defense might shape the strategic planning efforts to 
maximize research and development investments to meet our 
future national security needs in a fiscally constrained 
environment.
    This year, of course, our subcommittees has held a number 
of hearings to better understand the Department's near-term 
investments in technology capabilities that address current 
threats in Iraq, Afghanistan, and a number of other countries.
    Now, a significant portion of those investments over the 
last decade have been focused on technologies to transform our 
military to prosecute the war on terrorism. Now, we have had 
some successes with fielding MRAPs [Mine Resistant Ambush 
Protected vehicles], UAVs [Unmanned Aerial Vehicles], ISR 
[Intelligence, Surveillance, and Reconnaissance] and medical 
capabilities.
    However, we have stepped back from fully developing major 
transformational technologies, such as the future combat 
system, joint strike fighter, and the presidential helicopter, 
just to name a few.
    And as you know, these programs and others are likely to 
have cost us billions, now with little to show for it. 
Considering the cuts in the defense budget are currently 
projected to be over $400 billion during the next decade, I 
believe it is absolutely vital to spend more wisely. Now these 
prudent and deep cuts, however, must not undermine our 
capability and our ability to maintain our current defense 
posture globally.
    They must not jeopardize our ability to quickly adapt to 
future geopolitical environments that are stressed by rising 
powers, population changes, competition for resources such as 
food, water, energy, climate change, and other shaping factors 
that we hope to hear about from our experts today.
    Again, from our earlier hearings, this subcommittee is 
familiar with the Department's current investments in 
technologies to combat violent extremists. We have heard a lot 
about investments and policy directions with regard to cyber 
security, as well as the Department of Defense's efforts 
addressing the threats of weapons of mass destruction and our 
challenges with global strategic communications.
    These are all critically important problems and security 
challenges that are facing us today. However, given the factors 
I mentioned earlier and the potential impact on our future 
national security needs, we are investing--we have to make sure 
that we are investing in the right technologies and that is a 
significant question that we posed, to meet the future threats 
as well.
    Are our national security and defense strategies are 
aligned appropriately to guide future investments? And should 
we develop an interim Quadrennial Defense Review now, or wait 
until the next full review? Your thoughts on how DOD might 
reform its current cumbersome program, budget decision process, 
to plan future technology development strategies and 
investments would be helpful. And I know the members of this 
subcommittee would benefit from your expert opinion.
    I also would be interested in your thoughts on how the 
Department might improve the overall management of the defense 
research, engineering, test and evaluation program, both within 
the Pentagon and throughout the research engineering 
enterprise.
    For example, what technologies should the DOD continue to 
lead investments in, and where might we better leverage 
industry and our foreign partners instead.
    With that, I just want to thank you once again for being 
here, for your time today. And I look forward to the questions 
and answers.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 35.]
    Mr. Langevin. Thank you, Chairman. Again, Chairman, I want 
to thank you for holding this very important hearing and it is 
a very timely topic.
    My first question for the panel, what are some of the 
technology areas in which the U.S. no longer leads, or will 
lose the lead in the next 5 years?
    Whoever would like to start.
    Mr. Berkeley. Well, I would start with one, which is 
ballistic missile lift capability for satellites in 
international laboratories.
    Mr. Reed. Almost all the U.S. semi-conductor production is 
offshore. The production within the United States of advanced 
semiconductors is sorely limited.
    Mr. Berkeley. Virtually no computer screens are 
manufactured in the United States.
    Mr. Langevin. Anyone else.
    Mr. Thomas. I would just touch on directed energy. And this 
is an area which has enormous potential as a military game 
changer as we look ahead.
    But the scenario which the United States probably is 
underinvesting in relative to some of its competitors out 
there, countries like China and even Russia.
    Mr. Langevin. Do we no longer lead in these areas, or are 
we--would you assess that we are in danger of losing the lead 
within an area in the next 5 years?
    Mr. Thomas. I think in with respect narrowly to directed 
energy, I think our lead in there is questionable at best.
    Mr. Langevin. Thank you.
    For which technologies does the DOD need to lead research 
and development? And for which technologies can the DOD rely on 
industry and the commercial sector to lead research and 
development?
    Dr. Mark. May I try to answer that? I think that on the 
directed energy question, my colleague here is a little 
pessimistic. I think we have done things that are truly unique 
and I think have future potential.
    I am talking here now about a program in which I was 
personally involved, and that is to put a big laser on an 
airplane and to shoot down some ballistic missiles. We have 
done that. And we have done it for ranges that are of military 
interest. They are classified. I can't tell you what they are.
    But we have shut the program down and we did it to 
ourselves. We have a lead in that area and we stopped. So I 
think that you agreed? Yes.
    Let me talk about some things that I personally have been 
involved in in the computer area. The computer is nothing but 
an assembly of switches and storage devices, information 
storage devices.
    And the ability to make very capable computers depends on 
how many of these you can put in a volume that you can handle 
that is small enough. And the technology that is on the horizon 
today I think is, in my mind, anyway, the most interesting new 
step that we are taking, or we can take, where we have the 
clear lead. And I am talking about what has come to be called 
Quantum Computing.
    I don't want to go into the technical details, but just to 
confirm that we are in the lead, our current Secretary of 
Energy, Steve Chu, won the Nobel Prize in Physics in 1997 for 
essentially inventing the--I shouldn't say invent--for 
discovering the phenomenon that makes these devices perhaps 
possible.
    Now, what I am talking about? A current transistor on a 
chip is about a nanometer in dimensions, between 1 and 10 
nanometers. That means it is between a 100,000 and 1 million 
atoms. You need that many atoms to control a current, an 
electric current.
    What Steve Chu showed is that you can influence single 
atoms if you can capture them and keep them steady to store 
information. Our estimates are that you might be able to make 
computer elements, not out of a million atoms, but about of a 
few hundred. And so, you have orders of magnitude of computer 
capability that we may be able to get.
    The interesting thing is that some tantalizing experiments 
have already been done. A fellow by the name of Shore built one 
of these devices that works with a very small number of atoms 
and discovered that you can factor large numbers very much more 
rapidly than you can with an existing computer. The National 
Security Agency is very interested in random number tables, 
because it is these tables that allow you to initialize a 
decoding procedure. Well, this guy has a computer that can 
generate these tables in a time that is much shorter than what 
we have now.
    So I think there is something on the horizon here that we 
are pursuing and we will continue to pursue. But I think my 
guess right now is we are investing probably about $70 million 
a year in that.
    It is not really necessary to put a lot more money into it, 
but there are some things that aren't being funded. And the 
point is that by increasing that by 50 percent, you might find 
the one person that has the good idea.
    We are not at the place where money is terribly important 
yet. We are at a place where I think we--by doubling the 
investment that we have for something like that--we might make 
more rapid step-wise progress.
    Mr. Langevin. Any other member of the panel?
    Mr. Reed. In my statement, I talked about nanotechnology, 
biotechnology, information technology and cognitive 
neuroscience as being areas of emphasis, an increasing emphasis 
within our research and development program, our science and 
technology program.
    But the fact that you can get things for good coming out of 
that, as well as things for bad, depending upon how the 
technologies are applied, it is important that we take means to 
ensure that the things for good are coming out and that we can 
detect when there are cases of the potential for things bad 
coming out. And the technology getting into the hands are being 
put to use by someone who can do us harm.
    That is a both an intelligence problem, but it is also a 
problem within the teaching and the education process. We are 
still the focal point for education of sciences, scientists, 
and technology in the United States. We have that edge.
    But if you look at the youngsters, if you will, who are 
participating in that, there are a number of Third World 
countries represented and they come, they go to school, they 
may stay. But they may very well go back to their own home.
    What we want to do is to make it, I think, in one case, is 
to make it attractive for them to stay within the United States 
and work within the U.S. research and development 
infrastructure. Problem, look at the industrial research and 
development infrastructure in the United States, what was there 
and what is not there today.
    The General Electric laboratory in Pittsburgh, the last 
time I was in there about 10 years ago when I was on the staff 
of this committee, there was an activity associated with, I 
believe, General Dynamics, that was doing chip-growing there. 
They were canceled out. But the only other thing in that 
massive research and development facility was a Siemens 
research activity.
    All of that activity, gone. Bell Laboratories in Whippany, 
New Jersey. When I was commanding a laboratory at the Picatinny 
Arsenal back in the mid-1980s, that was a mecca. It was a mecca 
for research for years and years and years, and it is gone and 
in the hands of another activity.
    Certainly industry has to build to the bottom line, but 
there is a--we are not doing something right in this area if we 
are letting our research and development--industrial research 
and development--and the departmental and interagency research 
and development lose the support that it must have if we are to 
maintain the cutting edge of technology in this globalized 
world.
    Mr. Langevin. Okay. I thank the panel.
    Unless there is someone else who wants to add in, I will 
yield back.
    Mr. Thornberry. I thank the gentlemen.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I am trying to figure out the order of procedure here with 
this new process. I guess I got here before anyone else does. 
So I will be glad to defer to Mr. West, if he is prepared for 
questions?
    Mr. West. Thank you, Mr. Franks.
    And thank you, Mr. Chairman.
    And also our Ranking Member.
    Thank the panel for being here today.
    And I am glad, Dr. Mark, that you and I agree on something. 
I think war on terror is a terrible misnomer. We did not go 
into World War II to fight the Blitzkrieg nor the kamikaze. So 
we have to have a strategic level perspective.
    This past weekend I had the great opportunity to go visit 
the Special Operations Command and Admiral Olson, who as you 
know will be changing out command and retiring in about a 
couple of weeks.
    And what we ruminated on was the incredible advance in 
technology. When you go back and you think about the failure of 
Desert One, to now today where we were able to execute a zero 
illumination cross-border attack into Pakistan and take out the 
world's number one terrorist. And also capture that completely 
on video and also the use of the new biometrics.
    I recall going--I spent 22 years in the United States Army, 
just so everyone understands my background. But I remember, you 
know, sitting down, reading writings such as Francis Fukuyama 
about the end of history. And then also Samuel Huntington, who 
talked about the clash of civilizations remaking the world 
order.
    And a lot of people didn't pay any attention to that. When 
the Soviet Union collapsed, everyone was cheering and talking 
about how that was going to be a new state and no one projected 
out what would happen as far as the world and how that order 
would change.
    So, my question to you looking at where we are today and 
from a warrior's perspective on the ground, if I were to lock 
you four very astute gentlemen into a room, as we should/would 
do army planners, and tell you that you could not come out 
until you gave me the top two or three threats to this country 
and its national security as you move forward, what would be 
those top two or three threats that you would present?
    Mr. Thomas. Sir, if I might begin and I guess to answer 
your question, I would start by saying the United States is in 
a very different time than we were in 1950, as people like Paul 
Nitze were writing NSC-68 [National Security Council Report 
68]. And you could focus on one overarching threat for your 
defense planning. We face a panoply of threats, and we are 
going to for the future.
    So then I think you would start to think about, well, what 
threats are essentially overarching? And if you are able to 
deal with those challenges, it actually buys you fungible 
capabilities and forces that you can apply elsewhere.
    And there, I guess I would really say there are three. I 
mean, if you have the capabilities to maintain a stable 
military balance vis-a-vis China, those capabilities are 
fungible for other source of anti-access, area denial 
challenges you would face around the world.
    If you have the capabilities to locate, tag, and track 
dangerous individuals and to pursue groups like Al Qaeda and 
other non-state actors, those capabilities are fungible for a 
range of other problems that you might face as with radical 
elements around the world.
    And finally, we once thought a lot about nuclear weapons 
and guys like Thomas Schelling, more than half a century ago, 
and Bernard Burney, thought about what our strategies would be 
in a nuclear world.
    We are now entering a second nuclear era with new nuclear 
powers, such as North Korea and Iran, and we are going to have 
to think about regional nuclear balances. And this is an area 
where we are going to have to do it. And building those 
strategies for countries like North Korea or Iran, again, will 
be fungible in other areas.
    Dr. Mark. Yes, let me continue the discussion of nuclear 
weapons, because I spent 14 years in that business between 1956 
and 1960--1970, I am sorry. And you are absolutely right. That 
is, nuclear weapons are not going to wait. And our problem is 
to maintain, under very difficult technical circumstances, the 
stockpile that we have.
    We have not tested a nuclear weapon since 1993, and we have 
not developed a new design in spite of the fact that there is a 
vast increase of knowledge in technologies that pertain to 
nuclear weapons in that same period.
    I served as Director of Defense Research and Engineering in 
the second term of the Clinton Administration, and I, for 
various reasons, I also wore the nuclear hat, because the 
president decided to abolish the nuclear job in the Pentagon. 
And they came to me and they said, ``You are the guy that knows 
something about nuclear weapons, so you do the job.'' So I had 
two jobs, actually.
    The reason I make this point is that we started the program 
in that time which said our nuclear stockpile today is 
decaying. We never built a nuclear weapon with a shelf life in 
mind, how long we would keep them, because as soon as we 
deployed one set, we would start a new generation.
    We managed to persuade the Clinton administration to put a 
fair amount of money into refurbishing the stockpile, and then 
we also initiated an idea of building a new weapon entirely 
without having to test it.
    That is, the weapon would have to be compatible with our 
delivery systems, it would have to be safer than the current 
weapons that we have in the stockpile, it would have to work 
without being tested.
    We started that program. We put some money into it and 
actually ran a competition between the two nuclear weapons 
laboratory, and we have a completed design, and then we stopped 
it.
    I think that the nuclear issue has to do with the fact that 
we need to maintain technological leadership in that area, and 
that is the only way that we will be able to, I think, deal 
with people who try to threaten us.
    Mr. West. Thank you.
    Mr. Chairman, Ranking Member, I yield back.
    Mr. Thornberry. Thank the gentlemen.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you, gentlemen, all for being here.
    I wonder if you could, Mr. Berkeley particularly, go a 
little further in terms of the education piece and, perhaps 
people would suggest that we are talking more about soft power, 
smart power? And how do you think that the Department of 
Defense could be or should be using that intellectual 
capability that you speak of to add greater value to our 
learning, to the schools and, perhaps, you are speaking more in 
the sciences?
    But where do you see that piece? And where have we either 
felt that it is not appropriate perhaps for the Defense 
Department to be adding that value in some ways? Or what is it 
that kind of keeps us from looking at this particular issue in 
this way?
    Mr. Berkeley. I think you are on to one of the most 
interesting questions. I don't, for a second, want to give the 
impression that I don't think we shouldn't have a steel fist, a 
nuclear capability, a directed energy capability, whatever it 
is.
    I think we need steel fists, but I think that maybe a short 
story will illuminate the thinking. I ran into John Negroponte 
in the Zurich Airport last January, and I happened to have 
another fellow there with me that I didn't know well, but I had 
met. And I said, ``John, I would like to introduce you to the 
most powerful man you have never met.''
    And he had looked at me sort of startled, and there was a 
young man there in is 30s. And I said, ``I want to introduce 
you to the director of research at Facebook. He can talk to 
500,000 million at once.''
    I actually think that the battle space is being 
dramatically expanded and the most powerful weapon that we have 
is something called the cell phone, and it is because so many 
hundreds of millions of people are going to be able to get 
information through it.
    And I think that the idea of having an ``All Education, All 
the Time''--remember ``All News, All the Time'' at KYW in 
Philadelphia? ``All Education, All the Time,'' where no matter 
where you are in the world, you could get yourself educated. Or 
``All Medicine, All the Time,'' where no matter where you are 
in the world, you can get yourself some knowledge about 
diagnosing symptoms.
    Those kinds of soft power issues may be able to preclude 
the fear and uncertainty, the doubt, mistrust and jealousies 
that lead to simple ideological conflict.
    So the question about where the military fits in is that 
the military has--it is a nation-state unto itself, in that it 
has schools, it has to train its people, it has to be sure its 
people's children are trained and it can do the science. It can 
lead the way. I am not saying replace what the States are 
doing, or replace what the Department of Education is doing.
    I am saying give a shining example that is so visibly 
powerful because it is intellectually rigorous and proven, that 
it becomes a standard if it deserves to be the standard. So I 
want the science done. I want the research done, and it doesn't 
take marshalling all the States to do that.
    I happen to have been on this issue of the 18- to 24-year-
old cohort. I happen to have been responsive to General George 
Casey's call for a number of business people to come to West 
Point and spend 36 hours talking about this issue. And you 
should take a look at what Lieutenant General Ben Freakley is 
doing in South Carolina and several other states, Oklahoma also 
I think, to bring some Army resources into the elementary and 
secondary school system for the purpose of keeping people in 
school.
    It is not necessarily a STEM effort, but it is of the 25 or 
30 programs that the Army does offer school systems, ranging 
from ROTC [Reserve Officers' Training Corps] to send you some 
pamphlets. They are trying to push the limits and say, ``Okay, 
can we affect the staying-in-school issue?''
    I want to go a lot farther than that. I want to understand 
the neuroscience of how people learn. How many repetitions does 
it take to get something into long-term memory? It is a 
physical thing----
    Mrs. Davis. In politics, seven, the rule of thumb, so that 
is----
    [Laughter.]
    Mr. Berkeley. But the Army--okay, you understand.
    Mrs. Davis. Right. Yes.
    Mr. Berkeley. It takes a lot of repetitions to get things 
into long-term memory. My understanding is that most American 
curricula give about half the repetitions it takes to get 
something into long-term memory. Therefore, 3 weeks later, the 
child doesn't remember.
    Dr. Mark. I wonder if I could follow up your comments, 
because I teach the freshman course in our Aerospace 
Department. I have 140 students every year, every semester. 
Their question is, ``What is the DOD doing about education?'' 
And the answer is a lot.
    For example, we have defined--I was on a committee a couple 
of years ago or more, 4 years ago--that defined the area of 
systems engineering to be something that is in trouble within 
the Department of Defense, because we have spent much too much 
time on the process, rather than on the technology.
    And so, if you look at the schools that are looking at 
systems engineering, I think they are probably part of the 
problem by making complicated rules.
    This same Defense Department, then, when we pointed this 
out to them, gave us a grant of half a million dollars to get 
started on a systems engineering course in our department that 
we are just starting to teach, that will be the other end of 
this freshman course that I teach, where we will do hands-on 
problems, where the students must learn how to do engineering 
tradeoffs, where they must learn how to work in engineering 
teams, where they must learn how to influence a customer. That 
is, how you sell your product?
    And I think that the Defense Department is aware of the 
importance of education and if you do the right things, they 
will provide the money.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chair.
    Mr. Thornberry. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you, gentlemen, for being here. You are sort 
of that invisible frontline of freedom, and we appreciate your 
intellect and your commitment very much.
    I was intrigued, Mr. Thomas, when you mentioned earlier 
about the threat from technological surprise, and I guess the 
line of questions I would like to begin with is just to suggest 
that perhaps the surprise may be from an old technology that is 
applied in a new way.
    And as you know, there has been some recent reports, or 
recent information declassified, related to China's EMP 
[Electromagnetic Pulse] capability, not only to create IEMI 
[Intentional Electromagnetic Interference], but also their 
preparations for hardening their own grid and other facilities 
in case there is some type of disagreement over the Taiwan 
territory. So with that in mind, I guess, I would ask a couple 
of questions.
    First of all, in light of the last few reports on EMP and 
its potential danger to our electric grid from FERC [Federal 
Energy Regulatory Commission], from National Academy of 
Sciences, from the Department of Defense, and there is just six 
or seven of them that all seem to have come to a very common 
conclusion that this represents a pretty profound threat to us.
    Now I would like to, first of all, find out if there are 
anyone on the Committee that either agrees significantly with 
that or disagrees with it. What do you think the potential 
threat to our grid? What does EMP represent in terms of 
potential threat to our grid if it was--say we will start off 
from a geomagnetic storm and then progress to a high-altitude 
nuclear burst?
    Mr. Thomas. I think it would be very difficult to 
overestimate the severity of the threat that could be posed by 
electromagnetic pulse devices. What is particularly interesting 
is research that is going on around the world looking at non-
nuclear electromagnetic pulse and, particularly, microwave 
devices.
    Given our dependence not only as a society, but as a 
military on advanced telecommunications and networking 
capabilities, we, of course, are particularly vulnerable both 
in the civil regard as well as in a military regard.
    And this is something on the military side I know is really 
an animated point right now in terms of how we think about 
conducting operations in the future, potentially in denied 
communications environments.
    This is not only a technical challenge in terms of how we 
think about going back to old-fashioned modes of communication, 
like line of sight, but also for our precision navigation and 
timing, how we will operate, but also how we will adopt 
mission-type orders, as we did in the past, so that our forces 
can self-form networks and continue with commander's intent 
long after their communications back to higher headquarters had 
been eliminated.
    Mr. Franks. Well it seems to me that if Iran gained a 
nuclear weapons capability today, that our--we would be fairly 
intent on trying to harden our grid immediately. It seems like 
that will be something that we would want to do right away.
    Given some of the technology discussed in some of the 
released information related to China, that is much smaller 
warheads can be enhanced and have a much greater capability in 
terms of its EMP application.
    I am going to run out of time here. By the time I ask this 
question, you guys will--what I would like to do is let me ask 
one question and hope that each of you, as you feel led, will 
address the question.
    What do you believe that we should be doing about either 
defending against or preparing for the Iranian nation or others 
that could potentially gain this capability? I am going to stop 
there.
    In other words, I know that even with China's growing 
capability, that perhaps the indications are that we might not 
have as much to worry about their intent, as we may have to 
worry about Iran.
    If Iran gained a nuclear capability today, knowing that 
they have done some exercises that seem to be EMP related, what 
would be the best thing that we could do to defend ourselves 
against that, and how serious do you take this threat? And I 
will start over here with Mr. Berkeley and go left, even though 
it is hard for me to do that.
    Mr. Berkeley. Well, I think the structure of that answer it 
gets at the question of what is the right role of Government 
and what is the right role of business? And if you look back to 
the example of Civil Reserve Air Fleet, where the jet fleet was 
introduced with a lot of Federal help to build capacity and 
those planes where then available, for example, during Vietnam 
for troop transport, are available during national emergencies. 
That was a pretty good tradeoff between the public and the 
private.
    So if you want a hardened grid over and above what the 
economics dictate from the business community, I think it is 
sensible for the Government to pay for that hardening and then 
have a call on that capacity when they need it.
    Mr. Reed. I would branch on the threat as you have 
portrayed it by saying that one of the things you also need to 
be very concerned about is the potential threat to the 
electronic grid, and to almost every place that we are using 
electronics, from cyber warfare.
    And that that, in my personal view, is probably a more 
likely threat that we ought to be--or let me say equally as 
frightening in terms of the overall effect that we could--that 
would occur, and it could be done a lot more surreptitiously 
than in an overt nuclear strike.
    Dr. Mark. Yes, I would agree with that, and I have spent a 
fair amount of time thinking about EMP. And it is not as easy 
as it sounds. The problem is that an electromagnetic pulse is 
hard to control. It is not clear whether you can do what you 
want to do. I was present at the Starfish event in 1962, where 
we first discovered electromagnetic pulses. And let me tell you 
what happened, because it was very interesting.
    The explosion was at 400 kilometers altitude and we could 
see it. I was sitting on the beach in Kauai at Barking Sands at 
the range there. And you could see it above the horizon. And we 
got word that the streetlights in Honolulu had been taken out. 
But nothing happened to the power system. The reason for this 
is that the particular pulse that this device emitted was tuned 
to the streetlights, and so it deposited a lot of energy there, 
but didn't do anything else.
    So I am not sure that it is a weapon that you could rely on 
to do what you think it will do, what you want it to do. So it 
is there. We know how to harden things against it. The problem 
has always been how much do we spend on that?
    Mr. Thomas. I will just say, picking up on that, I mean at 
a minimum, you certainly want to harden your nuclear command 
and control----
    Mr. Franks. They are already hardened.
    Mr. Thomas. And a lot of your strategic capabilities so 
that you have a retaliatory capability. And then when I think 
it comes to infrastructure, I think that, as Dr. Mark suggests, 
you are going to have to think about some of the tradeoffs in 
terms of how much is enough relative to other threats that you 
have to prepare against, such as cyber attacks, to take down 
your critical infrastructure.
    Mr. Franks. Well, thank you, Mr. Chairman.
    I think this is a subject that should be discussed a lot 
more. Of course if we have a nuclear burst, Mr. Chairman, you 
know the cyber, it's ubiquitous. We don't computer capability 
at all without electricity. And I hope that in the ways you all 
deem fit that you will look at some of the new vulnerabilities 
of our new grid.
    The old grid during Starfish Prime was pretty much 
impervious to EMP, whereas the one that we have today, we have 
engineered ourselves into just profound vulnerability, I think.
    Anyway, thank you, Mr. Chairman.
    Mr. Thornberry. Thank you, sir.
    Let me go back and pick up on several things that each of 
you said.
    Mr. Thomas, in the beginning of your comments, you talked 
about, perhaps, power projection becoming obsolete and a 
variety of things, and then I am listening to Mr. Langevin's 
statement about the severe budget situation we are in and the 
necessity to make tough tradeoffs.
    And while, obviously, the purpose of today's hearing is to 
think ahead, part of our brain is in the here and now and the 
challenges we face with spending. But my impression from your 
comments is that we are spending money in the wrong places now.
    That a big percentage of our defense budget is going to 
things that are or are becoming obsolete. Is that what I should 
conclude? Do we need a fairly drastic overhaul of our spending 
priorities and to meet the emerging threats in national 
security and to develop the capabilities we need?
    Mr. Thomas. Thank you, Mr. Chairman. I think it is a 
terrific question.
    Around Washington, especially in defense circles, you hear 
a lot of talk about tradeoffs between high-end and low-end 
threats. How much should we be spending and preparing for 
irregular warfare? How much should we be thinking about China? 
I really think this is the wrong way to frame a very important 
debate.
    As we look to the future, what we see and what has come out 
of a lot of war gaming that we have done is that environments 
across the board, whether it is in thinking about advanced 
military states and the kinds of challenges they will pose, or 
it is thinking about non-state actors and what they will do, 
all of those environments become increasingly nonpermissive. 
And that is going to be true both at the high end and the low 
end.
    And what we see is that our feeder bases are going to be 
more vulnerable in the future. Our long-haul communications are 
going to be more vulnerable. Our global logistics systems are 
going to be more vulnerable.
    A navy that operates very close to the shores of an 
adversary may be more vulnerable to threats like anti-ship 
cruise missiles and submarines, and our ability to not only 
operate at range, but to penetrate into denied airspaces, 
remains quite limited.
    So across the board, we look and see that we face these 
challenges. And even in the realm of a irregular warfare, as we 
think about groups like Hezbollah, and what they were able to 
do in 2006 with unguided rockets, the potential escalation in 
terms of the severity of their attack should they have guided 
systems in the future is pretty profound.
    And I think if there is one theme that I really could hit 
on in terms of how we think about a big strategic review, it 
will be we really want to think about how we optimize ourselves 
for nastier environments in the future. And we really take a 
hard look at what capabilities are we acquiring or are we 
developing, which really depend on some very benign 
assumptions?
    Mr. Thornberry. Okay, thank you.
    Mr. Berkeley, I am not sure you got to fully develop your 
point that you made in your written statement that what 
business is looking for from the Government seems--is 
predictability. And I take it that is your primary--you 
mentioned one thing, business is looking to for us for. Would 
you elaborate on that, I mean particularly in this environment?
    Mr. Berkeley. Yes. I would be delighted to, Mr. Chairman.
    The certainties that business needs come because so much 
about competition is uncertain. And if Government wants funding 
for commercially risky technology, it needs to provide some 
certainty that that funding will be there. And we have funded 
an awful lot of research on earmarks and we have done it 
through the grant process with relatively small, relatively 
short-term grants that are then have to be reapplied for. And 
an awful lot of the university-based science leverage that is 
available to the Government.
    Business always looks at things as where is the leverage? 
Where can I get at low marginal cost get high marginal value? 
The single thing that the Government could do, in my opinion, 
would be to provide longer term predictability for funding for 
things that the businesses are not going to invest their own 
funds in, but are needed by the country.
    Mr. Thornberry. Well, and Mr. Reed, let me ask you to pick 
up on that, because you talk about the need to invest in labs. 
From your vantage point, what grade would you give us on 
investing in the right things for the long term? Or has more 
and more of our investment been focused on short-term immediate 
payoff, which is an impression I have in recent years?
    Mr. Reed. Clearly, a lot of our current investment has been 
focused on the war at hand, if you look at the amount of money 
going in to both development of technology, for instance in 
terms of mine-proof or mine-protected vehicles and in the 
procurement associated with that. I look at the overall science 
and technology account and, of course, I worked that in this 
committee for a number of years.
    I have been focused rather narrowly for about the past 5 
years on the biological side of that and the medical 
countermeasures, and I think for the most part that, that area 
we have got just about right, right now. Because there is a 
very strong funding stream going into the biomedical arena, 
both within the Department and within the Department of Health 
and Human Services, with respect to the medical counter-
measures technology development effort. And with some very 
smashing success. And of course, Andrew Weber appeared before 
this committee and talked about that earlier this year.
    It is important that be sustained, because right after the 
nuclear threat is, in many ways, a more probable biological 
threat that we have got to be ready to deal with.
    And that implies both the defense at the personal level in 
terms of therapeutics and vaccines, but also in the 
surveillance area and the establishment of surveillance 
networks worldwide, aimed not only at a potential bad actor, 
but also at the threat of naturally occurring diseases, and of 
course, that is the focus of that program, as you know.
    The laboratory sustainment area, I think, is absolutely 
critical, and we need to ensure that we are putting enough 
money into the Government side of the Government laboratories, 
the Department of Defense laboratories, to ensure the ability 
to attain and retain some really world-class youngsters that 
are coming out of the academic environment now. And are, in 
fact, going to work for some of the Government laboratories.
    It is almost eye-watering to see the sort of work they are 
going to do, but that is a fragile resource. And it is not in a 
time of the force coming back and having to rebuild and recock 
from the two wars. It is an area that will not be high priority 
for the military departments, for the Services, in terms of 
what they feel they have to spend their money on. You need to 
look very seriously at that, and I feel that very, very 
strongly. And of course, I commanded an RD&E [Research, 
Development & Engineering] center myself, back in the 1980s.
    I know the kind of work that we were doing then. The work 
that is being done in the various laboratories, not only in the 
Department of Defense, but also in Health and Human Services 
and then Homeland Security and the rest of the Federal 
establishment, and in the universities from the standpoint of 
multidisciplinary research universities and in the smaller 
schools, as well, that needs to be sustained.
    That is where the seed corn is grown, and that is where--
and we need to mature or nurture and then mature that seed corn 
and have places for them to go to work in support of the 
Nation.
    Mr. Thornberry. Okay, thank you.
    Mr. Reed. I will get off my soapbox now----
    Mr. Thornberry. You are making a point strongly, and I 
appreciate that.
    Dr. Mark. Mr. Chairman, may I add something----
    Mr. Thornberry. Sure.
    Dr. Mark [continuing]. To what my old friend, really old 
friend Jean, has said?
    And from the point of view now of the university, where do 
our students go to work today? Now engineering happens to be a 
profession where jobs are available, not only available, they 
are actually looking for people to take them.
    About 15 years ago, the then-new dot.com business was where 
the brightest kids went. Today, when my students leave and 
where do they want recommendations to? I can tell you the two 
largest, most popular places are the MIT [Massachusetts 
Institute of Technology] Lincoln Laboratory and the California 
Institute of Technology's Jet Propulsion Laboratory.
    The best students now want to go into Government-supported 
laboratories, some of them related to national defense. For 
example, Lincoln is an Air Force laboratory, or mostly Air 
Force. So I think that we are in a position now to take 
advantage of a renewed interest in service to the Nation in one 
way or another.
    Mr. Thornberry. Dr. Mark, let me ask you to can you just 
touch on the potential national security implications of 
quantum computing? And then, give us, for laymen who are 
technologically challenged, touch on your other key capability, 
hypersonics?
    Dr. Mark. Well, certainly, I would be glad to. I am also 
technologically challenged by these things. The question of 
size in the elements out of which a computer is made is the 
critical one. The number of computers--the number of switches, 
the number of elements that you can put in a small volume is 
key.
    The human brain has something like 10 to the ninth, or is 
that 100? A trillion. A trillion what we would call 
transistors. And that is because the switching elements in our 
neurons have approximately between 300 and 1,000 atoms, instead 
of the million or more that you now have in the computers that 
we build.
    What you can do with that is to essentially make a 
redundant computer and teach it to find its own paths to come 
to conclusions. That is what the human brain does, and it does 
it because it is highly redundant. A very small number of the 
neurons that we actually have are used at any one time. And we 
would be able to program that into our computers.
    See, I was involved in the beginning of the advent of 
parallel computing. You know we ran into a limit in the 1970s 
of the speed of light. If a computer has one central processor, 
then what determines its speed is how fast the signals can go 
from one element to another.
    And what we said--or Dan Slotnick was the one who really 
had this idea was, ``Why don't we have several of these run in 
parallel on the same program?''
    And we actually were able to put together a computer that 
had 64 of these things running in parallel. And we were able to 
show, after a lot of mistakes, that by God, yes! You could 
increase the speed simply by having more CPUs [Central 
Processing Units] work on the same problem.
    Today, thousands of CPUs work in the large computers on the 
same problem. And that was a real breakthrough. I think this 
breakthrough I see coming anyway in size of the processing 
elements are--they are going to be equally important. And I 
think that we have talked about robots, the capability of 
robots, I think that is where the first big application is 
going to be.
    But the one thing I am sure of is that we sure didn't 
predict what we could do with computers when we put that first 
64 processor machine together. So it is hard to say much more.
    With respect to hypersonic propulsion, that is a practical 
engineering problem. We have not been able to really do it, 
because we do not have--we have computers that can calculate 
hypersonic flow in the machines that we have built. What we 
don't have are ground-based test facilities to verify the 
computer codes.
    In all of the other aeronautical advances, we have been 
able to build wind tunnels where today we design our airplanes 
on the computer, but every once in a while you want to go make 
a test and make sure that your computer program actually 
reflects what happens.
    In the case of hypersonics, that is a very heavy 
investment. In my prepared statement, I have put a picture of a 
facility that was built in 1962, or started in 1962, and it was 
used only once, really, to test a ram jet run by a nuclear 
reactor.
    We ran that reactor for 5 minutes, and it had a total 
energy capacity of 500 megawatts, and we had a hypersonic wind 
tunnel there. I think some of it is actually still at the 
Nevada test site. I am not sure of that now, but----
    We would need to build something like that and make a 
commitment to develop hypersonic propulsion. Hypersonic means 
beyond five times the speed of sound.
    People have talked about it now for decades. We have never 
made one work, because we didn't have the knowledge. We have 
now made two hypersonic tests in the last 2 or 3 years that 
were partially successful, and they were partially successful 
because we are beginning to learn how to do this.
    The people that do these things, when I go talk to them, 
they tell me that if we could have a ground-based facility, 
where we could vary parameters. You see, these flights are 
pretty expensive. These are things that are dropped by that B-
52 [Boeing Stratofortress strategic bomber] we have down at 
Edwards Air Force Base.
    We had the X-51 [Boeing unmanned scramjet demonstration 
aircraft] on and we had the X-43 [NASA unmanned experimental 
hypersonic aircraft] in the last two or three--and I guess the 
51 has the record of a couple of hundred seconds of hypersonic 
flight above Mach 5. And I think that I would seriously 
recommend that we consider putting a facility together and 
establish a leadership in this area.
    Now, what do you get for that? If we could have hypersonic 
cruise missiles, rather than the subsonic once we have, the 
hypersonic cruise missile would travel at about a mile a 
second. So 60 miles would be a minute, you would have--and 
nobody could shoot that down, by the way. There aren't any 
missiles that maneuver fast enough to do that.
    The other important application is space launch. You know, 
there is a company now that launches space vehicles starting 
with an airplane, it is an old Lockheed 1011 [TriStar airliner] 
that flies at 40,000 feet, and the Pegasus rockets are dropped 
from that airplane and then go into space. If that airplane, 
instead of running at Mach 0.8, which is 3 or 4 percent of what 
it takes to go into orbit, ran at Mach 5 or Mach 7, say, then 
you are a third of the way there in space.
    We have a good rocket industry. That rocket industry has 
nothing to do now, because we have done away with the shuttle, 
they don't have to maintain those engines, and we are using 
Russian engines on our big rockets.
    I think if we made a concerted effort to build an air-
breathing rocket, which is what a hypersonic engine really is, 
and get sustained flight--and remember if you have a hypersonic 
vehicle and it flies for an hour, you have gone around the 
world pretty much, or close to it. Well, you have done what, 
3,600 miles in 1 hour.
    So that is something we ought to do. That ought to be a 
national program.
    Mr. Langevin. Could I ask a question? I will be very brief. 
Just for clarification.
    Mr. Thornberry. Sure, sure.
    Mr. Langevin [continuing]. When you are talking about--when 
you are talking about hypersonic kind of--are you talking about 
Scramjet technology, or is that something----
    Dr. Mark. Scramjets, yes. Scramjet means supersonic cruise 
ram jet, scramjet.
    Mr. Langevin. Because I know we had a successful test of 
that, then we had to table it.
    Dr. Mark. Yes, we did. We had two initially. Well, we had 
two vehicles, but several flights.
    Mr. Langevin. All right, thank you.
    Mr. Thornberry. Great.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    I just had one question that maybe all of you can kind of 
touch upon. I am sorry for being late.
    And as we are talking about the issue of hypersonic or we 
were talking about the labs that you were talking about and 
some of the technologies that you have brought forth in this 
hearing, one of the issues in a lot of areas around the country 
now is that this technology as it evolves doesn't necessarily 
get transferred into American jobs like it used to.
    And where the Defense bill was always seen many, many years 
ago as a jobs bill throughout the country and almost every 
congressional district could identify very easily how those 
jobs were happening from the investment that the Pentagon was 
making.
    And I find it very interesting that young people now are 
going into these labs, because some of the most cutting-edge 
research is being done there. And so, if you could just throw 
out some suggestions to us of some things that we can do from 
our end to invest in things like you were just mentioning, that 
I think capture the imagination of young people to want to be a 
part of something like that, which I was fascinated just 
listening you talk about it and I can imagine if I was an 
engineer how much I would want to be a part of that.
    So what are those things that we need to invest in that 
have the practical appeal to achieve some of the goals that we 
need to achieve in the military? But also, will draw in the 
best and brightest back into the Government? And then how, when 
we develop that technology, what can we do from our end to help 
transfer the manufacturing and commercialization of those 
products to happen here in the United States?
    And I know there is a lot of people who now want to 
manufacture near the research in order to continue to try 
improve the products. So I am just going to throw that out 
there? And if all of you can just kind of comment on it, I 
would appreciate it.
    Thank you, Mr. Chairman.
    Dr. Mark. May I follow about what Mr. Reed said about the 
labs? I think that the algorithm that we used to have was that 
we tried to lead in those technical fields that are on the 
cutting edge of something that lead to some new capabilities. 
And then, we do the--we build the first airplanes or the first 
military vehicles, ships, whatever, but you cannot after that 
prevent other folks from building these things, and so we 
actually invest also in foreign countries to get them built 
elsewhere.
    But the key is to have the laboratories and to have the 
universities that can maintain that lead. I mentioned that our 
current Secretary of Energy performed the experiments when he 
was a professor at Stanford that led to this concept of quantum 
computing. Now, you hear somebody who is now in the position to 
do something about it and to make sure that the initial 
production, the initial big investments are made in the United 
States.
    I was at a meeting the other day when we talked about this. 
When we built the first parallel computer, we didn't know how 
to program it.
    But Burroughs company took the risk to build it. It was 
funded by the Government, but they put their best people on it, 
and so they actually had these people off the projects on which 
they were making their current profits, you see. And the 
Federal money allowed them to put this 64 CPU computer 
together.
    Then they gave it to us at our research center, a federal 
research center, the NASA [National Aeronautics and Space 
Administration] Ames Research Center, and we made it work. And 
we made it work, because we had the time and we had the Federal 
employees who could do that. They didn't have to go somewhere 
else into a profit-making activity.
    So that system works, and what has happened recently is, as 
I mentioned a couple of things, where we have deliberately 
stopped. And I think that, you know, when I was in the Pentagon 
in the 1970s, when we had relatively more freedom and more 
money than we have now, we used to fund some high-risk projects 
by simply taking some airplanes off the production line.
    You know, remember, we stopped the 141 [Lockheed C-141 
Starlifter strategic airlifter] program for a while to get 
something started that we wanted to. And I think that, that we 
don't have as many airplanes anymore to do that now. But 
somehow we need to get back to the point where we can establish 
and maintain leadership in the critical technologies, and I 
have mentioned two of them. There are more.
    Mr. Berkeley. I would think that your question might lead 
to geography by geography, starting out with what are the 
strategic advantages that State or that region has? And then, 
offering some predictability for the businesses that are there, 
and there are two aspects to this.
    I am less interested, I think, in grants than I am in 
revenues. You want to have a customer, and so the steps to 
being a customer is having access to having your product 
evaluated.
    Atlanta's business community about 15 years ago got 
together and the large companies agreed to allow the small 
entrepreneurial companies that by any normal procurement 
officer's approach would never have qualified to be a customer 
of that large company.
    But they agreed to put those small companies through the 
procurement process and to give them honest evaluations as to 
where their technology stood and why they were going to get the 
business, or why they were not going to get the business.
    So that they had a feedback loop that shortened the period 
of uncertainty as to whether they had a viable product or not. 
That was very popular with entrepreneurial and venture-backed 
companies in the Atlanta region in that period of time. This is 
when I was working at NASDAQ and I heard about this, because 
the venture capital community brought it into us as a very 
interesting idea.
    The Government could help with that, not only by asking 
Government contractors to entertain the look at this product 
process, the procurement process, but also to look at how the 
Government itself has barriers to new companies getting 
started, because of the concept of size, concept of viability. 
I don't have--I am just thinking this out in response to your 
question.
    But I think there is a lot here that doesn't cost a lot of 
money, it just costs a commitment to giving people a chance to 
have access and then after they have access, if they have got 
something, some acceptance process that may not be in the 
normal Federal procurement model, but could get a good 
technology, a customer that might ultimately be----
    Mr. Ryan. And would you say most of those folks in the 
supply chain, or if they are not on the supply chain, then 
trying to get into the supply chain with some of the bigger 
companies, with a little bit of help from the large company, 
could quickly meet the standards that they would expect a 
supplier to meet?
    Because I have seen this with other company where a G.E. 
comes in and says, ``We want to buy something from you. You are 
not quite doing it right. Here is how we need you to do it.'' 
And within a few weeks, they have it retooled. And is that 
something that could be fairly easy to do?
    Mr. Berkeley. Yes, yes. It is important in the learning 
cycle by having--your shortening the time at risk. Looking at 
it from an investor's point of view, you are helping figure out 
whether there is a ``there'' there to that product. Is there 
ultimately a chance to be somebody's supplier?
    And I think there is something to this. I mean, your 
comments sparked my mind, that you can reduce risk and reduce 
time and, therefore, reduce capital costs by getting somebody's 
product evaluated honestly, quickly. And then if there is 
something there, help them get through this complicated federal 
procurement process, or even the complicated commercial 
procurement process for large companies.
    Mr. Ryan. Thank you, Mr. Chairman.
    If I could just make one comment, too? I mean a lot of 
these, the labs and the investments, I think I get worried 
sometimes that the national discussion is that there isn't 
anything, any investments, that the Government makes are good.
    And I think that is the backdrop of the national discussion 
right now. And I think when we are looking at competing with 
China and some of these other countries that are putting a lot 
of money behind a lot of different initiatives, we are playing 
the short game here. We are not playing the long game. And I 
just get worried.
    So if you can help us say, ``Hey, well, here is some 
Government investment that really had this ripple effect 
through the economy,'' I think that could be helpful for those 
of us who were trying to at least bring that to the discussion 
that we are having, nationally.
    Mr. Thornberry. Thank you.
    Mrs. Davis, did you have other----
    Mrs. Davis. Yes, just briefly, Mr. Chairman.
    I think that we have really touched on a lot of very 
important issues, and I think just that the title of this 
hearing--you know, looking at the Department of Defense's 
investment in technology and the capability to meet emerging 
security threats. Can you correct me if I, you know, I have a 
sense from this that you would not necessarily give us terribly 
high marks, or the Department of Defense, I guess, terribly 
high marks, for aligning the technology investments with real 
threats today.
    Is that correct? Or it is somewhere in the middle there of 
how those investments that we are making today really align 
with the security threats?
    Mr. Berkeley. Well, I think it is important to not to ask 
basic research to find a home too early. I do think we have 
spent a lot of time gearing to applied research, because of the 
conflicts we are in, and because of the need to solve a 
particular new set of problems, IEDs [Improvised Explosive 
Devices] for example.
    But I would protect that basic research and fight like that 
like a fierce cornered dog to protect that basic research. And 
it will not have an obvious answer, but you need to task well-
meaning, well-educated responsible judgment to make those 
decisions. It cannot be put in a formula.
    Mrs. Davis. Yes. And I guess I don't want to ask you what 
kind of a grade you would give us doing that and protecting 
that basic R&D, because I think over the last few years, I have 
certainly seen where we actually did have to work hard to 
protect it. And I am not sure that in the end we did a fabulous 
job at it. So----
    Mr. Thomas. If I could just pick up on that last comment. I 
think that is absolutely right that you want to cast a very 
wide net in terms of basic science and technology research that 
you are doing. One of the challenges we face, though, is that 
the program of record is so entrenched that programs get stuck 
in a development vortex, and it is wasting taxpayer dollars.
    And it is a lot of these programs that are in development 
that really would very directly address some of the specific 
sorts of security challenges and emerging threats that we have 
been talking about.
    But the problem is just that it is a zero sum game, and 
that they are going to displace some program which is far more 
mature, it has jobs across a number of congressional districts, 
and is very close to--or is in procurement. And so, how we 
strike that balance in the future will be tricky.
    Mrs. Davis. Yes. No, I appreciate that. We know that is 
difficult on a host of different levels. And I think in the 
past, I know I have been interested and I think my colleagues, 
too, is at what point do you necessarily pull the plug on some 
things that really aren't developing in the way that they 
should? And how are those decisions made?
    But I think the other issue was really around human 
capital, and the extent to which we are--number one, I think 
keeping people in the military who have phenomenal skills who 
are going into industry and we lose them. We may keep them 
because they are in those fields. That is a dilemma at times.
    And the other one is how we use the resources and 
particularly coming out of the Iraq and Afghani wars today are 
service members who are quite capable of developing further in 
some of these areas. And yet, sometimes I am not sure we 
capture them and help them to do that as best we should. I 
don't know if you have any other thoughts on that?
    And the other issue that you have talked about certainly is 
the SBIR [Small Business Innovation Research] grants, the role 
that they play in terms of helping people to move, you know, 
through a so-called ``Valley of Death'' to really develop in a 
way that is important. And we can't get too far along in that, 
but I appreciate it because you have talked a lot about of 
those different issues.
    Do you want to comment on----
    Mr. Reed. I was just going comment that the Department in 
its 2012 budget request, I think as you are aware, has 
significantly increased its funding for--or its request for 
basic research. Now, the advanced 6.2, the next stage up, that 
is down a little bit. And there may be reasons for that 
intrinsically as far as the programs are concerned, that they 
are targeted towards.
    But it is imperative, in my view, and I think the view that 
this committee has had in the past and I think maintains today, 
to ensure the funding in the basic research programs and in the 
S&T [science and technology] in general. Because you have got 
to move that-through that in order to get what is ultimately 
going to go into development. And you have to make the--provide 
the wherewithal so that there is a bridge across that ``Valley 
of Death'' for something to get into development. And we could 
go on all day about that, and I won't bore you with that.
    But I think the Department has made, at least, as I read 
the budget and both getting ready for this and previously. It 
is on the right track as far as the 6.1 program. And it needs 
to--we need to continue that and taking all of them to the next 
stage.
    Mr. Berkeley. Just on the human capital side, I would say 
that I would encourage you to look at a differential incentive. 
For example, servicemen to go into advanced degrees in the G.I. 
bill, and other approaches.
    I am not so much steering it to STEM necessarily, but I 
would steer it to advanced degrees in an engineering model.
    The other thing that, as an outsider to this process and 
never having read the Quadrennial Defense Review, I am glad you 
are asking the question about basic research. So don't fail 
to--just asking the question is important, getting it on the 
table.
    Mr. Thornberry. Well I think this committee, on a 
bipartisan basis, will continue to, as Mr. Reed said, argue for 
basic research. But I don't think any of us ought to 
underestimate the challenges of the fiscal environment we are 
in either. And it will be relatively easy to cut and it would 
be a great mistake, I think, to do so.
    You all have been very helpful, as Mrs. Davis said, lots to 
think about here, and we have just touched the surface. But it 
is very helpful in our deliberations.
    Thank you all for being here.
    And with that, the hearing stands adjourned.
    [Whereupon, at 3:49 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             July 26, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 26, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8162.001
    
    [GRAPHIC] [TIFF OMITTED] T8162.002
    
    [GRAPHIC] [TIFF OMITTED] T8162.003
    
    [GRAPHIC] [TIFF OMITTED] T8162.004
    
    [GRAPHIC] [TIFF OMITTED] T8162.005
    
    [GRAPHIC] [TIFF OMITTED] T8162.006
    
    [GRAPHIC] [TIFF OMITTED] T8162.007
    
    [GRAPHIC] [TIFF OMITTED] T8162.008
    
    [GRAPHIC] [TIFF OMITTED] T8162.009
    
    [GRAPHIC] [TIFF OMITTED] T8162.010
    
    [GRAPHIC] [TIFF OMITTED] T8162.011
    
    [GRAPHIC] [TIFF OMITTED] T8162.012
    
    [GRAPHIC] [TIFF OMITTED] T8162.013
    
    [GRAPHIC] [TIFF OMITTED] T8162.014
    
    [GRAPHIC] [TIFF OMITTED] T8162.015
    
    [GRAPHIC] [TIFF OMITTED] T8162.016
    
    [GRAPHIC] [TIFF OMITTED] T8162.017
    
    [GRAPHIC] [TIFF OMITTED] T8162.018
    
    [GRAPHIC] [TIFF OMITTED] T8162.019
    
    [GRAPHIC] [TIFF OMITTED] T8162.020
    
    [GRAPHIC] [TIFF OMITTED] T8162.021
    
    [GRAPHIC] [TIFF OMITTED] T8162.022
    
    [GRAPHIC] [TIFF OMITTED] T8162.023
    
    [GRAPHIC] [TIFF OMITTED] T8162.024
    
    [GRAPHIC] [TIFF OMITTED] T8162.025
    
    [GRAPHIC] [TIFF OMITTED] T8162.026
    
    [GRAPHIC] [TIFF OMITTED] T8162.027
    
    [GRAPHIC] [TIFF OMITTED] T8162.028
    
    [GRAPHIC] [TIFF OMITTED] T8162.029
    
    [GRAPHIC] [TIFF OMITTED] T8162.030
    
    [GRAPHIC] [TIFF OMITTED] T8162.031
    
    [GRAPHIC] [TIFF OMITTED] T8162.032
    
    [GRAPHIC] [TIFF OMITTED] T8162.033
    
    [GRAPHIC] [TIFF OMITTED] T8162.034
    
    [GRAPHIC] [TIFF OMITTED] T8162.035
    
    [GRAPHIC] [TIFF OMITTED] T8162.036
    
    [GRAPHIC] [TIFF OMITTED] T8162.037
    
    [GRAPHIC] [TIFF OMITTED] T8162.038
    
    [GRAPHIC] [TIFF OMITTED] T8162.039
    
    [GRAPHIC] [TIFF OMITTED] T8162.040
    
    [GRAPHIC] [TIFF OMITTED] T8162.041
    
    [GRAPHIC] [TIFF OMITTED] T8162.042
    
    [GRAPHIC] [TIFF OMITTED] T8162.043
    
    [GRAPHIC] [TIFF OMITTED] T8162.044
    
    [GRAPHIC] [TIFF OMITTED] T8162.045
    
    [GRAPHIC] [TIFF OMITTED] T8162.046
    
    [GRAPHIC] [TIFF OMITTED] T8162.047
    
    [GRAPHIC] [TIFF OMITTED] T8162.048
    
    [GRAPHIC] [TIFF OMITTED] T8162.049
    
    [GRAPHIC] [TIFF OMITTED] T8162.050
    
    [GRAPHIC] [TIFF OMITTED] T8162.051
    
    [GRAPHIC] [TIFF OMITTED] T8162.052
    
    [GRAPHIC] [TIFF OMITTED] T8162.053
    
    [GRAPHIC] [TIFF OMITTED] T8162.054
    
                                  <all>

</pre></body></html>
